Office of Inspector General



      Audit of the Board’s 

Government Travel Card Program





               •                  •




 Board of Governors of the Federal Reserve System



                                          September 2012

September 28, 2012

MEMORANDUM

TO:            Richard Anderson
               Chief Operating Officer and Director, Management Division

FROM:          Andrew Patchan Jr.
               Associate Inspector General for Audits and Attestations

SUBJECT:       OIG Report: Audit of the Board’s Government Travel Card Program

The Office of Inspector General (OIG) of the Board of Governors of the Federal Reserve System
(Board) is pleased to present its report on the Audit of the Board’s Government Travel Card
Program. The Board’s government travel card (GTC) program provides employees with the
resources to arrange and pay for official business travel and other travel-related expenses and to
receive reimbursements for authorized expenses of such travel. The Board participates in the
General Services Administration SmartPay2 program and contracts for GTC services with
JPMorgan Chase. For the period of our review, April 30, 2010, to April 30, 2011, cardholders
made 21,921 transactions totaling approximately $6.4 million.

In conducting our audit, we interviewed staff from the Board’s Management Division and
reviewed the Board’s Travel policy, Government Travel Card Procedures, and other relevant
documentation to gain detailed knowledge of the Board’s GTC program. We also held meetings
with JPMorgan personnel and utilized reports available in JPMorgan’s online account
management system, PaymentNet.

While we did not identify many instances of improper use, we found that the Board needs to
strengthen its internal control framework over the GTC program. We found that cardholders
made unauthorized transactions on their GTCs and that the Board has not blocked or flagged
several merchant category codes that could potentially allow cardholders to use their GTCs for
unauthorized transactions. We also found that the Travel Office did not close GTC accounts for
separating cardholders in a timely manner and approved employees’ requests for reimbursement
for international lodging based on per-diem instead of actual expenses as required by the Travel
policy. In addition, we found that a number of GTC cardholders had delinquent accounts and the
Travel office did not did not retain documentation of the notifications sent to Board employees.
Richard Anderson 	                               2                             September 28, 2012


Our report contains four recommendations designed to help the Board improve internal controls
over administering, controlling, and closing GTCs. We provided you with a copy of our report for
review and comment. In your response, included as appendix 2, you stated that you concur with
recommendations 1, 3, and 4. In addition, you stated that you partially concur with recommendation
2. You also discussed the actions that have been taken, are underway, or are planned to address
the report’s recommendations.

We appreciate the cooperation that we received from Board staff during our audit. The principal
contributors to this report are listed in appendix 3. This report will be added to our public
website and will be summarized in our next semiannual report to Congress. Please contact
Cynthia Gray, Senior OIG Manager, at 202-973-5040 or me at 202-973-5003 if you would like
to discuss this report or any related issues.

Enclosure
cc:	   Bill Mitchell
       Jeff Peirce
       Jeff Windsor
 Office of Inspector General



       Audit of the Board’s 

 Government Travel Card Program





Board of Governors of the Federal Reserve System





                                      September 2012

Abbreviations

Board       Board of Governors of the Federal Reserve System
GSA         General Services Administration
GTC         Government Travel Card
JPMC        JPMorgan Chase
MCC         Merchant Category Code




                                       5

Table of Contents
Background..................................................................................................................................... 9

   Contractual Requirements ........................................................................................................... 9

   Board Policy and Procedures .................................................................................................... 10

   Travel Office Government Travel Card Management .............................................................. 10

Objective, Scope, and Methodology ............................................................................................. 11

Findings, Conclusions, and Recommendations ............................................................................ 12

   Controls Should Be Enhanced to Detect and Prevent Unauthorized Transactions ................... 13

   Controls Should Be Enhanced to Provide Reasonable Assurance That Government Travel

   Cards Are Properly Administered and Controlled .................................................................... 19

Appendixes ................................................................................................................................... 25

   Appendix 1—List of JPMorgan Chase PaymentNet Reports ................................................... 27

   Appendix 2—Division Director’s Response ............................................................................. 29

   Appendix 3—List of Principal Contributors to This Report ..................................................... 33





                                                                       7

Background
The Board of Governors of the Federal Reserve System’s (Board’s) government travel card
(GTC) program provides employees with the resources to arrange and pay for official business
travel and other travel-related expenses and to receive reimbursements for authorized expenses
of such travel. The Board participates in the General Services Administration (GSA) SmartPay2
program and contracts for GTC services with JPMorgan Chase (JPMC). 1 The Board authorizes
JPMC to issue GTCs to Board employees and each cardholder bears full responsibility for
repaying charges. According to the Board’s Travel policy, cardholders use the GTC for official
travel-related expenses, including the following: air and rail tickets, lodging, cash advances,
business meals, parking, taxi fares, travel-related incidentals, rental cars, training, and conference
registration fees.

For the period of our review, April 30, 2010, to April 30, 2011, Board cardholders made 21,921
transactions and charged approximately $6.4 million to their GTCs. As of June 9, 2011, the
Board had 1,617 cards issued to employees.

The Government Accountability Office and other Offices of Inspector General have reported that
federal agencies have failed to implement adequate safeguards against GTC misuse. In light of
these prior reports as well as the GTC program’s susceptibility to waste, fraud, and abuse, we
conducted this audit.

Contractual Requirements

The JPMC contract and cardholder agreement outline specific requirements pertaining to the use
of the GTC. The contract and cardholder agreement state that cardholders should use their GTC to
pay for official government travel and travel-related expenses only. Cardholders are fully liable
for all charges to their GTCs, and cardholders are responsible for making GTC payments in full
when they are due. The Board is not liable for charges to cardholders’ accounts. The contract
allows JPMC to use a collection agency for delinquency control on cardholders’ accounts.
Cardholders are bound to the terms and conditions of the agreement when they sign the
application form and activate, sign, or use the card. The contract also states, “Risk mitigation
controls, policies, and practices are critical tools for ensuring the efficiency and integrity of charge
card programs by eliminating payment delinquencies, charge card fraud, waste, and abuse.”




1.	 In June 2007, the GSA awarded a set of master contracts to Citibank, JPMC, and U.S. Bank to provide credit
    card services to government agencies. The contracts cover a four-year base period (December 21, 2007,
    through November 29, 2011) and two option periods (November 11, 2011, through November 29, 2015, and
    November 30, 2015, through November 29, 2018).


                                                       9

Board Policy and Procedures

The Board is not subject to the Travel and Transportation Reform Act of 1998 2 or the Federal
Travel Regulation 3 promulgated by the GSA. However, the Board has issued Travel policy and
Government Travel Card Procedures that incorporate the mandatory use of GTCs by federal
employees as provided in the Travel and Transportation Reform Act. The Board’s policy and
procedures cover aspects of the GTC program, such as issuing cards to employees, monitoring
card usage for misuse and delinquency, and closing cards. The policy and procedures state that
cardholders (1) must use the GTC to pay for air and rail tickets and lodging while on business
travel, (2) may use the GTC to pay for other official travel-related expenses, and (3) cannot use
the GTC to pay for personal expenses. In addition to defining proper and improper use of the
GTC, the procedures provide guidance on applying for a GTC, submitting vouchers for
reimbursement of official government travel expenses, and potential disciplinary actions
administered for improper use.

Travel Office Government Travel Card Management

Under the Board’s Travel policy and Government Travel Card Procedures, the manager of the
Travel Office, which is part of the Board’s Management Division, is responsible for
administering and managing the GTC program. The responsibilities of the Travel Office include
(1) reviewing and approving GTC applications prior to submission to the card issuer,
(2) providing administrative training for individual GTC cardholders, (3) processing travel
reimbursement claims for individual GTC cardholders, and (4) serving as liaison between the
Board and the card issuer. In addition, the GTC procedures state that the Travel Office is
responsible for monitoring GTC cardholders’ compliance with policy requirements by
performing periodic reviews to ensure that cardholders’ accounts are current, that cardholders do
not engage in unauthorized purchases or inappropriate activity, and that cardholders who have
separated from the Board no longer have an active GTC. The Travel Office uses JPMC’s online
account management system, PaymentNet, to send applications to JPMC for card issuance; to
generate reports to monitor cardholder account activity, such as delinquencies and declined
transactions; and to close cards.

During our audit, Travel Office staff and Board employees used both a paper-based and an
automated system (Travel Manager) to process travel authorizations and travel expense
statements. In March 2011, the Board began its transition to a new web-based system
(E2 Solutions), which integrated paperless travel authorization and vouchering, travel
management center services, and financial system processing with the goal of streamlining the
process. Although we have not evaluated the new system, we plan to undertake such a review in
the future.



2.   Travel and Transportation Reform Act of 1998, 5 U.S.C. 5701 note.

3.   Federal Travel Regulation, 41 C.F.R., §§ 300-304.




                                                         10 

Objective, Scope, and Methodology
The overall objective for this audit was to evaluate the effectiveness of the Board’s controls over
the GTC program. More specifically, we assessed whether controls (1) are designed and operate
effectively to provide reasonable assurance that cards are properly issued, administered, and
controlled; (2) act to detect and prevent unauthorized or fraudulent transactions in a timely
manner; and (3) are adequate to ensure proper use of the cards in accordance with Board policy
and procedures.

To accomplish our objective, we reviewed the Board’s Travel policy, the Board’s Government
Travel Card Procedures, and other relevant documentation to gain detailed knowledge of the
Board’s GTC program. We assessed the program’s control processes and compliance with
Board policy. We interviewed Travel Office staff responsible for managing the Board’s GTC
program to obtain information on program operations and controls. We also held meetings with
JPMC personnel, as well as the Board’s Accounting Section staff, to obtain relevant information.
Based on our understanding of the Board’s GTC program, we developed detailed summaries of
the program’s processes and procedures to assess the program’s controls and to assist with our
fieldwork testing.

We analyzed Board records and various JPMC PaymentNet reports, which we list in appendix 1,
for the period April 30, 2010, through April 30, 2011. We evaluated the adequacy and
effectiveness of several controls as follows:

   •	 We tested GTC issuance by reviewing the automated application routing process for four
      applications.

   •	 We tested GTC credit and cash-advance limit increases by selecting all 10 (100 percent)
      credit limit increases for completeness and proper authorization. There were no cash
      advance limit increases.

   •	 We tested the proper usage of GTCs by reviewing a randomly selected sample of 302 of
      20,687 (approximately 2 percent) transactions from various PaymentNet reports to
      determine whether controls detect and prevent unauthorized or fraudulent transactions
      and whether cardholders properly used their GTCs in compliance with Board policy and
      procedures.

   •	 We tested GTC account delinquencies by randomly selecting four months from
      PaymentNet’s Delinquency History and Suspension-Cancellation Reports and obtaining
      the records for the notification e-mails sent to cardholders and/or their supervisors.

   •	 We tested the closing of accounts for cardholders prior to their separation from the Board
      by selecting a random sample of 44 of 322 (approximately 14 percent) separated
      employees and comparing the GTC account status in PaymentNet with the Board’s
      personnel records to determine whether accounts were closed in a timely manner.



                                                11 

We verified the accuracy and completeness of information by comparing travel vouchers,
receipts, supporting records, and PaymentNet reports.

We began our audit in April 2011 and completed the audit fieldwork in February 2012. We
performed our work in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.

Findings, Conclusions, and Recommendations
While we did not identify many instances of improper use, we found that the Board needs to
strengthen its internal control framework over the GTC program. We did not find any
weaknesses with the design and operating effectiveness of controls over GTC issuance or with
cash advance and credit limit increases, but our audit did find that controls are not providing
reasonable assurance that GTCs are properly administered, controlled, and used in accordance
with Board policy and procedures. We also found that controls are not detecting or preventing
unauthorized transactions. Specifically, we found the following:

    •	 Cardholders made unauthorized transactions on their GTCs.
    •	 The Board has not blocked or flagged several merchant category codes (MCCs) that
       could potentially allow cardholders to use their GTCs for unauthorized transactions. 4
    •	 A number of GTC cardholders had delinquent accounts, and the Travel Office did not
       retain documentation of the notifications sent to Board employees. 5
    •	 The Travel Office did not close GTC accounts for separating cardholders in a timely
       manner.
    •	 The Travel Office approved employees’ requests for reimbursement for international
       lodging based on per-diem instead of actual expenses as required by the Travel policy.

Our report contains four recommendations designed to help the Board improve internal controls
over administering, controlling, and closing GTCs. We have discussed our observations with
Travel Office management. The Travel Office responded quickly to our observations by
communicating with employees found to have made unauthorized purchases and by initiating
new processes, such as reviewing additional reports and retaining documentation.




4.	 As determined in the GSA’s SmartPay2 glossary, an MCC is a four-digit code that identifies the type of
    business a merchant conducts (e.g., gas station, restaurant, airline). There are 1,004 MCCs. Merchants select
    an MCC with their bank based on their primary business. However, merchants may offer products that are
    unrelated to their primary business. Federal agencies may block certain codes to prevent unallowable purchases
    and flag others that may pose a risk of improper use.

5.	 An account is considered “delinquent” or “past due” if full payment is not received by the statement due date.
    With the exception of cash advances, interest does not accrue on outstanding account balances.

                                                        12 

Controls Should Be Enhanced to Detect and Prevent Unauthorized Transactions

   1.	 We recommend that the Director of the Management Division ensure that the
       Travel Office strengthens controls to detect and prevent improper use of GTCs by

           a.	 providing periodic training to employees on the proper use of GTCs
           b.	 regularly reviewing reports of attempted and charged transactions and
               retaining evidence of the reviews
           c.	 reviewing and updating the list of allowable and blocked MCCs

The Board’s Travel policy and Government Travel Card Procedures set forth the criteria for
employees’ proper use of GTC, as well as for Travel Office staff’s monitoring of GTCs for
improper use. The Board has implemented both “detective and preventive” controls to ensure
proper use of GTCs. Specifically, the Travel Office utilizes an activity report available in
PaymentNet to detect misuse of the GTC and blocks certain MCCs that could be associated with
unauthorized transactions. However, during our transaction testing, we found some instances of
improper use and noncompliance with Board policy and procedures. In addition, we found that
certain MCCs that could be associated with improper use were neither flagged nor blocked.

Ineffective Monitoring System

According to the Travel policy, travelers are permitted to use the GTC for official travel-related
expenses, including air and rail tickets; lodging expenses for business travel; cash advances not
exceeding estimated out-of-pocket expenses; business meals; parking; taxi fares; travel-related
incidentals, such as fees for hotel safes or shipping charges for work-related items used for
business travel; rental cars; gas for a rental car or personal car used for business travel; training;
and conference registration fees. To monitor use of GTCs, the Board’s Government Travel Card
Procedures states that the Travel Office should run a monthly report of transactions by
cardholders (Unusual Activity Report) and review the report for GTC misuse. The procedures
also state that when the Travel Office supervisor identifies a transaction that does not appear to
be travel related, he or she should (1) send an e-mail to the cardholder identifying the date,
amount, and merchant involved in the transaction, as well as requesting an explanation for the
transaction, and (2) enter this information into a spreadsheet to track misuse of the GTC. In
addition, the procedures state that the Travel Office may run a report of attempted transactions
declined by the card issuer (Declines Report) to look for patterns of attempted misuse of the
GTC.

In practice, Travel Office staff told us that they use only the Unusual Activity Report to monitor
employees’ use of the GTC; they do not review the Declines Report or any other reports. This
practice limits the scope of Travel Office review because the Unusual Activity Report only lists
charges to the two MCCs that the Board flags: 7299—Miscellaneous Personal Services (Not
Elsewhere Classified) and 7298—Health and Beauty Spas. Moreover, Travel Office staff do not
maintain any evidence of their reviews, such as a spreadsheet to track misuse of the GTC. We
found that these procedures and controls do not fully detect or prevent unauthorized transactions.




                                                 13 

We conducted three separate tests to determine how well controls detect or prevent unauthorized
transactions. With data from the Unusual Activity Report and the Transaction Detail Report
listing all transactions for cardholders, we tested 302 of the 20,687 transactions (approximately
2 percent) charged during the period of our review 6, April 30, 2010, to April 30, 2011—
44 unusual activity transactions, 170 randomly selected transactions, and 88 questionable MCC
transactions.

First Test for Unauthorized Transactions

For the first test, we randomly selected and reviewed 44 of the 115 transactions labeled 7299—
Miscellaneous Personal Services (Not Elsewhere Classified) on the Unusual Activity Report.
Our testing determined that these transactions were allowable because most were associated with
a processing fee at a hotel and others were travel and training related. The report did not list any
transactions associated with 7298—Health and Beauty Spas.

Second Test for Unauthorized Transactions

For the second test, we randomly selected 170 transactions from the Transaction Detail Report
and traced them back to the travel authorizations and travel vouchers. We found that 6 of the
170 transactions (approximately 4 percent) were unauthorized purchases made by five
employees. Additional research into the GTC account activity of these five employees during
the review period using the Cash Advance Detail by Hierarchy and the Transaction Detail
Reports identified additional instances of unauthorized transactions (table 1).

The most significant unauthorized transactions were made by a single employee whose cash-
advance withdrawals and related service charges, gas charges, and restaurant charges during the
review period totaled $14,858.38. This employee had not been on official travel since 2006.
The other employees’ instances appeared to be unauthorized transactions because they had no
travel authorizations or vouchers covering the transaction dates. 7 The Board did not reimburse
employees for any of the unauthorized transactions.




6.	 In analyzing the Transaction Detail Report, we determined that there were approximately 20,687 charges and
    1,234 refunds totaling 21,921 Individual Travel Card transactions. We selected our sample from the 20,687
    charges.

7.	 We referred these instances of unauthorized transactions to appropriate officials for further investigation and/or
    action as warranted.

                                                          14 

Table 1: Summary of Improper Use Identified during Transaction Testing
                                                                                                   Amount of
 Employee                              Description of Improper Use                                Improper Use
     1       Employee used his or her GTC for cash withdrawals, as well as gas and restaurant        $14,858.38
             charges. Our testing identified two transactions totaling $504.44. We further
             investigated transactions made by this employee during the scope of our review
             and identified an additional 66 transactions amounting to $14,353.94; 41 were
             cash-advance withdrawals. The employee had no travel vouchers covering these
             transactions.
     2       Employee used his or her GTC for a $223.40 airline ticket. We further                     8,634.07
             investigated transactions made by this employee during the scope of our review
             and identified 20 additional transactions (hotels, travel charges, etc.) totaling
             $8,410.67. The employee had no travel vouchers covering these transactions. The
             employee is no longer with the Board.
     3       Employee used his or her GTC to purchase a $149 Amtrak ticket. We further                 1,796.23
             investigated transactions made by this employee during the scope of our review
             and found another rail transaction and a hotel transaction amounting to $1,647.23.
             The employee had no travel vouchers covering these transactions.
     4       Employee used his or her GTC for a hotel charge of $297.21. We further                     297.21
             investigated transactions made by this employee during the scope of our review
             and did not identify any additional unauthorized transactions. The employee had
             no travel vouchers covering this transaction.
     5       Employee used his or her GTC to rent a car for $173.30. We further investigated            176.05
             transactions made by this employee during the scope of our review and identified
             a toll charge of $2.75. The employee had no travel vouchers covering these
             transactions.
Source: OIG analysis of PaymentNet reports.


Travel Office staff were not aware of the unauthorized transactions until we brought them to
their attention. After we notified the Travel Office supervisor of the unauthorized transactions,
he contacted the employees who made the purchases. The employees told him either that they
did not know that the GTC cannot be used for personal purchases, even while on official Board
travel, or that they used the GTC inadvertently. Therefore, we believe that periodic training for
employees on the proper use of the GTC could help prevent unauthorized transactions.

The Travel Office did not detect these instances of improper use due to a lack of robust
monitoring. Because Travel Office staff limited their reviews to the Unusual Activity Report,
which only lists transactions in the Miscellaneous Personal Services and Health and Beauty Spas
MCCs, they could not have found any of the improper use identified in table 1. Travel Office
staff told us that they do not review other reports because there have not been many instances of
misuse. However, we believe that some instances of improper use could have been detected had
Travel Office staff reviewed additional GTC activity reports.

Since bringing these matters to the attention of the Travel Office, staff have begun reviewing the
Declines Report and the Cash Advance Detail by Hierarchy Report and retaining evidence of
their reviews; however, we have not tested this additional monitoring. In addition, the Travel


                                                       15 

Office posted an announcement on the Board’s internal website reminding employees that the
GTC cannot be used for personal expenses.

Unflagged and Unblocked Merchant Category Codes

The GSA SmartPay2 training program, Travel Basics, explains that one way agencies can
mitigate fraud, waste, and abuse is to use MCC blocks to restrict transactions that can be
processed on GTCs. Merchants select their MCC based on their primary business, but they may
offer products that are unrelated to their primary business. To reduce misuse of the GTC, the
Board blocks all transactions associated with certain MCCs at the point of sale and flags other
MCCs for monitoring. We found, however, that several unauthorized transactions were
processed on GTCs in one unflagged and unblocked MCC, and we believe that unauthorized
GTC transactions could be processed in other unflagged and unblocked MCCs as well.

Annually, the GSA offers credit card management training to all users of the SmartPay2 contract.
The training includes instruction on how agencies can control the use of GTCs by blocking
transactions associated with risky MCCs. Each agency has the discretion to decide which MCCs
to block, which to flag, and which to allow for GTC usage. According to reports from
PaymentNet, we determined that, of the universe of 1,004 MCCs, the Board blocks 226 and
allows 778; included in the 778 are the miscellaneous personal services and health and beauty
spas MCCs that are flagged to appear on the Unusual Activity Report. The blocked codes have
descriptions such as wire transfer and money-order services and betting and gambling merchants.

Third Test for Unauthorized Transactions

We performed a third test to determine whether controls detect or prevent unauthorized
transactions. We reviewed the Board’s list of 778 allowable MCCs and identified 13 with
descriptions that may be particularly vulnerable to nonbusiness, personal transactions, beyond
those MCCs that the Board flags or blocks (table 2). We then filtered the Transaction Detail
Report for transactions associated with these codes. Our testing did not identify any transactions
taking place during our review period in 6 of the MCCs, but did identify 88 transactions
occurring during our review period associated with the remaining 7 codes. We used the MCC
description and merchant name listed on the report to determine whether the specific merchant
associated with the 88 transactions appeared to provide training or were travel related. For
merchants that were not easily identifiable, we performed Internet searches and traced the
merchants to travel authorizations and vouchers. We identified 4 of the 88 transactions (about
5 percent) as improper use, all of which were associated with MCC 7999.




                                                16 

Table 2: MCCs Identified by the OIG as Posing Risk of Improper Transactions and
Number of Related Transactions
                                                                                                   Number of
                                     MCC Number and Description                                   Transactions
 4457    Boat Rentals and Leases                                                                            0
 4468    Marinas, Marine Service and Supplies                                                               0
 6300    Insurance Sales and Underwriting                                                                   5
 6760    Savings Bonds                                                                                      0
 7032    Sporting and Recreational Camps                                                                    0
         Equipment Rental and Leasing Services, Tool Rental, Furniture Rental and Appliance
 7394                                                                                                       4
         Rental
         Membership Clubs (Sports, Recreation, Athletic), Country Clubs, Private Golf
 7997                                                                                                       0
         Courses
         Recreation Services, (Includes Swimming Pools, Miniature Golf and Driving Ranges,
 7999                                                                                                     *4
         Ski Slopes, Boat Rentals, Aircraft Rentals, and Sport and Games Instruction)
 8011    Doctors                                                                                            0
 8111    Legal Services, Attorneys                                                                          3
 8398    Charitable and Social Service Organizations                                                      36
 8641    Civic, Social, and Fraternal Associations                                                        34
 8651    Political Organizations                                                                            2
                   Total                                                                                  88
Source: OIG analysis of Board records and PaymentNet reports.

* Instances of improper use.

Transactions associated with six of these seven codes appeared to be associated with a business
purpose, such as training, travel insurance, and luggage cart rentals. All transactions associated
with MCCs 8111, 8398, 8641, and 8651 were associated with training; MCC 7394 transactions
were associated with luggage cart rentals; and MCC 6300 transactions were associated with
travel insurance. According to the Travel Office, travel insurance is a permissible expense on
the GTC. We found that employees did not request reimbursement for travel insurance
transactions.

For the seventh code, MCC 7999—Recreation Services (Includes Swimming Pools, Miniature
Golf and Driving Ranges, Ski Slopes, Boat Rentals, Aircraft Rentals, and Sport and Games
Instruction), we found that two employees each used the GTC for two unauthorized transactions.
Specifically, one of the two employees used the card to purchase two museum tickets at a total
cost of $178.20 prior to combined business and personal travel. 8 Further review of this
employee’s transactions during the review period found an additional five instances of improper
use. The additional five instances consisted of two additional museum tickets at a total cost of


8.	 We referred these instances of unauthorized transactions to Travel Office staff for any disciplinary action
    warranted.


                                                         17 

$96.20 and three train tickets at a total cost of $892.47. 9 The total amount of improper use for
the employee was $1,166.87. The other employee used the GTC to purchase tickets to two
animal exhibits at a total of $42.06 while on business travel. We did not identify any additional
unauthorized transactions upon further review of this employee’s purchases. Board officials told
us that the Board did not reimburse any of these instances of improper use.

Although the majority of the transactions identified during the test appeared to be associated with
a business purpose, we believe that all of the codes listed in table 2 could pose a risk of improper
use of the GTC. At a minimum, management should flag these codes to appear on the Unusual
Activity Report as an additional control against GTC improper use. For example, although we
found that transactions associated with MCC 8651—Political Organizations were for training,
we believe that management should flag this code because Board employees are not permitted to
participate in political activities while on duty.

Travel Office staff explained that the list of blocked and allowable MCC codes was last reviewed
under the previous contract with Bank of America and has not been updated since the change to
JPMC in 2008. The Board’s Travel policy and Government Travel Card Procedures do not
address a periodic review of blocked, allowable, and flagged MCCs.

Management Response

Regarding recommendation 1, the Division Director stated the following:

                  Concur. To help reduce potential misuse, we already have posted
                  one reminder on the Board’s intranet regarding the appropriate use
                  of GTCs and we will ensure that the reminders are posted
                  periodically. In addition, we plan to distribute credit card sleeves
                  to all GTC cardholders to help reduce inadvertent use by
                  physically separating the GTC from other credit cards and making
                  it easy to identify. We also have obtained wallet-sized pamphlets
                  produced by the General Services Administration titled “FAQS,
                  what to do and what not to do with the GTC” that we plan to
                  distribute to all cardholders. . . .

                  In February of this year we began monthly reviews of the Declines
                  Report and the Cash Advance Detail Report. We are retaining
                  documentation of all reviews (including any unusual activity) as
                  well as documentation substantiating communications with
                  employees regarding such use. . . .

                  Finally, we agree that a review of MCCs to identify those that
                  should be blocked or flagged for inclusion in the Unusual Activity
                  Report is prudent, and we have completed that review. . . . [W]e

9.   The Board’s Travel policy states that in an instance of combined business and personal travel, the traveler may

     use the GTC for the combined hotel and meal charges, but the traveler should attempt to separate air/rail 

     charges into business and personal amounts. Travelers should only use the GTC for the business portion.


                                                         18 

                 will establish a process to periodically (e.g., annually) review the
                 list of allowable codes.

See appendix 2 for additional management comments related to this recommendation.

OIG Comment

In our opinion, the actions described by the Division Director are responsive to our
recommendation, and we plan to follow up on the Division’s actions to ensure that the
recommendation is fully addressed.

Controls Should Be Enhanced to Provide Reasonable Assurance That Government Travel
Cards Are Properly Administered and Controlled

    2.	 We recommend that the Director of the Management Division ensure that the
        Travel Office

             a.	 strengthens controls over GTC delinquencies by notifying a delinquent
                 employee’s supervisor before his or her GTC is suspended
             b.	 retains evidence of its delinquency reports and notifications

The cardholder is responsible for submitting vouchers for reimbursement of official travel
expenses and for making GTC payments in full when they are due. Payment delinquencies can
impact the integrity of the GTC program. The GSA’s SmartPay2 master contract states that it is
in the best interest of the government to proactively monitor delinquency, including providing
early notification of delinquency. The Board’s Government Travel Card Procedures requires
Travel Office staff to notify cardholders when a GTC is at risk of suspension, suspended, or
canceled due to delinquency. However, the procedures do not require Travel Office staff to
notify a delinquent cardholder’s supervisor until the GTC is suspended or canceled. During our
testing, we identified numerous GTC accounts that were delinquent and some that were
suspended or canceled. In addition, we found that the Travel Office staff did not properly
document and retain evidence of their delinquency reports and notifications for cards that were
delinquent, suspended, or canceled.

The Board’s Government Travel Card Procedures states that travelers should submit a travel
voucher within 5 business days after the completion of a trip, and the Travel Office should
reimburse travelers within 10 business days of receiving a properly completed travel voucher.
The procedures also state that each month, the Travel Office should review the 45-Day Report
showing cardholder accounts that are 1–30 days past due and at risk of suspension (pre­
suspension stage). The procedures also specify that the Travel Office should then send each
cardholder listed on the report a notification that his or her account is past due and at risk of
suspension. In addition, on a monthly basis, the Travel Office supervisor should review the
Delinquencies with Current Balance Report and identify cardholders whose accounts have been
suspended or canceled. 10 The Travel Office supervisor should send notifications to cardholders

10.	 When a cardholder’s account is 61 days past the statement date, the card issuer can suspend the account and,
     when it is more than 126 days past the statement date, the card issuer may close the account.

                                                        19 

and their supervisors and/or staff assistants for accounts that have been suspended due to
delinquency. When an account has been canceled because of nonpayment, the Travel Office
supervisor should send a notification to the employee’s division director. We believe that Travel
Office staff should also send a notification to a cardholder’s supervisor at the GTC pre-
suspension stage as a further risk-mitigation control.

During our testing, we were unable to use the Delinquencies with Current Balance Report or the
45-Day Report that are used by the Travel Office because the office did not retain these reports
and they could not be recreated. We tested accounts using data from the Delinquency History
and the Suspension-Cancellation Reports, which show accounts that are delinquent and the
number of days that accounts are delinquent. The Delinquency History Report, which listed
delinquencies from August 2010 through April 2011, indicated that 376 of the 1,617 accounts
(approximately 23 percent) were delinquent at some point, most of which (368 accounts) were
1–30 days past due. For our review period, the Suspension-Cancellation Report indicated that
6 accounts were suspended and 2 accounts were canceled. For our testing of accounts at the pre-
suspension stage, we randomly selected four months and determined that there were
226 accounts at the pre-suspension stage during that time frame. Because there were only 8
accounts that were suspended or cancelled during that time frame, we tested all of the accounts
rather than selecting a sample.

For 226 of the 368 cardholders at the pre-suspension stage, we requested that Travel Office staff
provide evidence of the notifications sent to cardholders. For the 8 cardholders at the suspended
or canceled stage, we requested that Travel Office staff provide evidence of the notifications sent
to the cardholders, their supervisors and, for canceled accounts, their division directors. Travel
Office staff told us that they sent notifications to the appropriate personnel or verified that
cardholders had a pending travel voucher that would settle the outstanding balance. Travel
Office staff did not, however, retain evidence of their reviews; specifically, they could neither
provide us copies of the notifications nor identify the accounts that had pending travel vouchers.

Since we brought these matters to management’s attention, Travel Office staff have begun
retaining evidence of their reports and notifications. We have not tested this new process.

Management Response

Regarding recommendation 2, the Division Director stated the following:

               Concur in part. We do not agree that the first part of your
               recommendation (i.e., notifying an employee’s supervisor that his
               or her GTC is in the pre-suspension stage) would significantly
               mitigate risks to the Board or the program. . . . We are concerned
               that notifying an employee’s supervisor could create unintended
               consequences, particularly if the delinquency period is de minimis.

               Rather than implement a new supervisory notification process, we
               note that the Board’s travel system has an automatic reminder
               feature that periodically sends emails to employees after their

                                                20 

              return from travel reminding them to complete their voucher and
              claim reimbursement (which can be paid directly to their GTC
              account). We have changed the settings from sending the first
              reminder after 10 days and subsequent reminders every 30 days
              thereafter, to sending the first reminder after 10 days and
              subsequent reminders every 15 days. . . .

              Regarding the second part of your recommendation, we concur and
              have already begun centrally retaining the notifications to
              employees and supervisors when an employee’s GTC reaches the
              pre-suspension, suspension, or cancellation stage.

See appendix 2 for additional management comments related to this recommendation.

OIG Comment

In our opinion, the actions described by the Division Director are responsive to our
recommendation. We believe that an automatic email reminder at both 10 and every 15 day
intervals will act to decrease employees’ GTC delinquencies, and thus meet the intent of our
recommendation. We plan to follow up on the Division’s actions to ensure that the
recommendation is fully addressed.

   3.	 We recommend that the Director of the Management Division ensure that the
       Travel Office improve controls over closing GTCs for separating employees by

           a.	 ensuring supervisory review of all separating employees
           b.	 retaining evidence of employee-separation reviews

The Board’s Government Travel Card Procedures requires Travel Office staff to close GTCs for
separating Board employees. During our testing, we found that (1) several GTCs were still
active after employees separated from the Board and (2) Travel Office staff did not document
and retain evidence of their employee-separation reviews.

The Board’s Government Travel Card Procedures states that every Monday, the Travel Office
receives a Transfer and Separation Report, also known as a Termination Report, from the
Management Division’s Administrative System Automation Program Group. The report lists
employees who will be separating from the Board in the following one week, two weeks, and
one month. The report also shows employees who separated the previous week. Travel Office
staff are required to use the report to identify and close GTCs for employees who will be
separating from the Board in the following two weeks, as well as to verify that GTCs for
employees who separated from the Board the previous week are closed. However, we found that
Travel Office staff’s separation reviews did not result in the timely closure of individual GTC
accounts for all separated Board employees, and staff did not document and retain evidence of
their separation reviews.

We analyzed the Board’s Termination Report and identified 322 employees who had separated
from the Board from April 30, 2010, through April 30, 2011. We randomly selected 44 of the
                                               21 

322 employees (approximately 14 percent) and traced them to the JPMC Cardholder Profile
Report to determine whether they were GTC cardholders. Of these 44 employees, 27
(approximately 61 percent) were individual GTC cardholders. We found that accounts for 23 of
the 27 employees (approximately 85 percent) were closed after the cardholder separated from the
Board; the average number of days from separation to closure was 7 and the greatest number of
days was 31. The remaining 4 accounts (approximately 15 percent) were still open. These cards
remained open from 142 to 412 days after the employees separated from the Board.

When we brought these four accounts to the attention of the Travel Office in September, staff
closed the cards the same week. Although individuals with active GTCs after separation could
potentially use their cards for personal use, we did not identify any improper activity in any of
these accounts after the employees had separated from the Board.

Travel Office staff attributed the delays in canceling cards to the way the process was being
performed. The Travel Office supervisor selected a sample of separated employees from the
Termination Report and verified that the cards for these employees were closed in PaymentNet,
instead of reviewing the records for all separated employees.

We believe that management should periodically remind Travel Office staff about the
importance of closing accounts in a timely manner and expand the supervisory review process to
cover all separating employees. We also believe that documenting and retaining evidence of
reviews assures management that a complete and thorough review was performed. At the time
of our testing, Travel Office staff stated that because they had the capability to recreate the
Termination Report if needed, they did not retain evidence of their review. Without evidence of
separation reviews, management cannot be assured that controls are in place and operating
effectively. Since we brought these matters to management’s attention, Travel Office staff have
begun retaining evidence of their reviews. We have not tested this new process.

Management Response

Regarding recommendation 3, the Division Director stated the following:

               Concur. As indicated in your report, we already have implemented
               these changes.

OIG Comment

In our opinion, the actions described by the Division Director are responsive to our
recommendation, and we plan to follow up on the Division’s actions to ensure that the
recommendation is fully addressed.




                                                22 

   4.	 We recommend that the Director of the Management Division ensure that Travel
       Office staff and employees

           a.	 comply with Board policy on reimbursement for international lodging costs
           b.	 receive periodic training on Board policy on reimbursement for international
               travel

The Travel policy states, “The Board reimburses actual lodging costs.” We found, however,
instances in which employees received reimbursement for international lodging expenses at the
per-diem rate, which exceeded actual costs. The policy does not mention any exceptions for the
reimbursement of international hotel stays, and the Board does not have a separate policy to
cover international travel.

During our testing of the reimbursement process, we selected a random sample of 110 vouchers
to test for compliance with Board policy. We determined that 15 of the 110 vouchers
(approximately 14 percent) included expenses for international travel. Of these 15 vouchers,
3 (20 percent) were reimbursed at the per-diem rate rather than for actual costs, resulting in a
combined overpayment of $1,696.47. The actual costs for these 3 vouchers totaled $2,535.53,
but the total reimbursement amount for all 3 was nearly 67 percent higher, at $4,232.00.

According to Travel Office staff, they believed that employees could request and receive
reimbursement for international hotel stays at either per-diem rates or actual cost. As a result,
Travel Office staff approved payments for vouchers with incorrect amounts. We believe that
employees and Travel Office staff should receive periodic training on travel reimbursement
requirements to ensure compliance with the Travel policy.

Management Response

Regarding recommendation 4, the Division Director stated the following:

               Concur. We have reviewed our processes for reimbursing
               international travel expenses and discussed the policy’s
               requirements with the Travel Office staff. We will incorporate
               periodic reminders as part of future staff training activities to
               ensure compliance with the policy.

OIG Comment

In our opinion, the actions described by the Division Director are responsive to our
recommendation, and we plan to follow up on the Division’s actions to ensure that the
recommendation is fully addressed.




                                                 23 

Appendixes





    25 

Appendix 1—List of JPMorgan Chase PaymentNet Reports

                                                                              Can Report Be
      Title of Report                    Description of Report
                                                                               Recreated?
                            Can be used to determine which Board
 Cardholder Profile Report  employees are GTC cardholders. The report              No
                            shows cardholder information.
 Cash Advance Detail by     Can be used to analyze cash-advance
                                                                                  Yes
 Hierarchy Report           transactions of cardholders.
                            Can be used to monitor the occurrences of
 Declines Report            cardholders’ GTC transactions being declined          Yes
                            and the reasons for the declines.
                            Can be used to monitor the number of times a
                            cardholder has been past due in paying his or
                            her card balance. The report provides
 Delinquency History
                            delinquency information over a rolling 12­             No
 Report
                            month period; however, it can be filtered on
                            statement date to adjust the delinquency
                            history displayed.
                            Can be used to monitor past-due accounts by
 Delinquencies with Current
                            cardholder. Subtotals are provided as well as          No
 Balance Report
                            grand totals for the entire report.
                            Can be used to monitor delinquencies; the
 45-Day Report              report identifies accounts that are 1–30 days          No
                            past due or 31–60 days past statement date.
                            Can be used to identify accounts that have
 Suspension-Cancellation
                            been suspended (includes temporary                    Yes
 Report
                            suspension) or closed.
                            Can be used to monitor the purchases for each
                            account. Transactions as well as line items are
                            included; payments are excluded from this
 Transaction Detail Report                                                        Yes
                            report. Subtotals are provided for each
                            account as well as grand totals for the entire
                            report.
                            Can be used to monitor unusual transaction
                            activity and determine whether the transactions
 Unusual Activity Report    are business related. Subtotals are provided          Yes
                            for each merchant category as well as grand
                            totals for the entire report.
Source: OIG analysis.




                                             27 

Appendix 2—Division Director’s Response




                         BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM

                                        MANAGEMENT DIVISION





DATE:      October 1, 2012
TO:        Andrew Patchan, Jr.
FROM:      Richard A. Anderson /signed/
SUBJECT:   Response to the OIG’s Audit of the Board’s Government Travel Card Program

         We appreciate the opportunity to comment on the draft report of the OIG’s audit of the
Board’s government travel card (GTC) program. We are pleased that the audit did not find any
weaknesses with the design and operating effectiveness of controls over GTC issuance or with
cash advance and credit limit increases, and that you did not identify any fraud tied to usage of
the travel cards. Although the audit identified instances of improper card usage, we believe our
processes have been effective in ensuring that the Board does not reimburse employees for such
charges. In general, we concur with most of the process improvements included in your
recommendations and, as noted in the report, we implemented many of the recommendations
earlier this year. The following comments provide additional perspective on the
recommendations and management’s planned or completed actions to further enhance our
processes and related controls.

        OIG Recommendation 1:
        We recommend that the Director of the Management Division ensure that
        the Travel Office strengthens controls to detect and prevent improper use of
        GTCs by
        a) providing periodic training to employees on the proper use of GTCs
        b) regularly reviewing reports of attempted and charged transactions and
            retaining evidence of the reviews
        c) reviewing and updating the list of allowable and blocked MCCs

        Concur. To help reduce potential misuse, we already have posted one reminder on the
Board’s intranet regarding the appropriate use of GTCs and we will ensure that the reminders are
posted periodically. In addition, we plan to distribute credit card sleeves to all GTC cardholders
to help reduce inadvertent use by physically separating the GTC from other credit cards and
making it easy to identify. We also have obtained wallet-sized pamphlets produced by the
General Services Administration titled “FAQS, what to do and what not to do with the GTC”
that we plan to distribute to all cardholders. While it is impossible to prevent employees from
inadvertently selecting the GTC when paying for a non-Board travel expense, these additional
measures should help minimize improper use.


                                                29 

        In February of this year we began monthly reviews of the Declines Report and the Cash
Advance Detail Report. We are retaining documentation of all reviews (including any unusual
activity) as well as documentation substantiating communications with employees regarding
such use. While we have implemented these reviews, we note that the additional controls are
detective, as opposed to preventive, and would have detected only the first instance of improper
use listed in Table 1 of your report. We have not identified a cost-effective mechanism to detect
all improper transactions, short of a manual review and mapping of every charge card transaction
to an approved travel authorization. We will, however, continue to look for additional
opportunities to strengthen our detective processes. As noted above, we believe that our controls
are effective to ensure the Board does not reimburse employees for improper charges.

       Finally, we agree that a review of MCCs to identify those that should be blocked or
flagged for inclusion in the Unusual Activity Report is prudent, and we have completed that
review. We note that the list of codes does not change frequently, and have been informed by
our credit card vendor that, other than codes for specific airlines or hotel chains (which we would
include for use), no MCCs have been added or changed since our last review in 2008. Indeed,
the vendor informed us that when new codes are added they default to non-enabled status for our
GTC users. In order for a Board GTC holder to use the card at a merchant using a new MCC, the
Board has to affirmatively add the code to the list. This process mitigates the potential for
misuse by ensuing that a new code is blocked automatically. Nevertheless, we will establish a
process to periodically (e.g., annually) review the list of allowable codes.

       OIG Recommendation 2:
       We recommend that the Director of the Management Division ensure that
       the Travel Office
       a) strengthens controls over GTC delinquencies by notifying a delinquent
           employee’s supervisor before his or her GTC is suspended
       b) retains evidence of its delinquency reports and notifications

        Concur in part. We do not agree that the first part of your recommendation (i.e.,
notifying an employee’s supervisor that his or her GTC is in the pre-suspension stage) would
significantly mitigate risks to the Board or the program. As noted in your report, very few
employees’ accounts actually reached the suspension or cancelation stage. We believe that our
current process of notifying employees at the pre-suspension stage is sufficient to ensure that the
vast majority of users do not reach the suspension or cancelation stage. We are concerned that
notifying an employee’s supervisor could create unintended consequences, particularly if the
delinquency period is de minimis.

         Rather than implement a new supervisory notification process, we note that the Board’s
travel system has an automatic reminder feature that periodically sends emails to employees after
their return from travel reminding them to complete their voucher and claim reimbursement
(which can be paid directly to their GTC account). We have changed the settings from sending
the first reminder after 10 days and subsequent reminders every 30 days thereafter, to sending the
first reminder after 10 days and subsequent reminders every 15 days. We believe this change
will help to encourage employees to file their claims for reimbursement and to ensure that their
GTCs are paid on time.

                                                30 

        Regarding the second part of your recommendation, we concur and have already begun
centrally retaining the notifications to employees and supervisors when an employee’s GTC
reaches the pre-suspension, suspension, or cancellation stage.


       OIG Recommendation 3:
       We recommend that the Director of the Management Division ensure that
       the Travel Office improve controls over closing GTCs for separating
       employees by
       a) ensuring supervisory review of all separating employees
       b) retaining evidence of employee-separation reviews

       Concur. As indicated in your report, we already have implemented these changes.

       OIG Recommendation 4:
       We recommend that the Director of the Management Division ensure that
       the Travel Office staff and employees
       a) comply with Board policy on reimbursement for international lodging
           costs
       b) receive periodic training on Board policy for reimbursement of
           international travel

       Concur. We have reviewed our processes for reimbursing international travel expenses
and discussed the policy’s requirements with the Travel Office staff. We will incorporate
periodic reminders as part of future staff training activities to ensure compliance with the policy.




                                                 31 

Appendix 3—List of Principal Contributors to This Report

Jennifer Rosholt-High, Project Lead and Auditor
Eric Barndt, Auditor
Amanda Sundstrom, Auditor
Cynthia Gray, Senior Office of Inspector General Manager




                                             33 

